No.
IN THE
SUPREME COURT OF THE UNITED STATES
DOUGLAS D. YOKOIS,
PETITIONER,

vs.
DAVID C. SHINN, DIRECTOR,
ARIZONA DEPARTMENT OF CORRECTIONS,
and
MARK BRNOVICH, ATTORNEY GENERAL
OF THE STATE OF ARIZONA
RESPONDENTS.
PROOF OF SERVICE
I, James Hamm . on behalf of Petitioner Douglas Yokois, do swear or declare that
on this date, je/n/zoz#
as required by Supreme Court Rule 29, I have served the
enclosed Petition for a Writ of Certiorari and accompanying Appendix on each party to
the above proceeding or that party’s counsel, by depositing an envelope containing
the above documents in the United States Mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.
The names and addresses of those served are as follows:
(1) David C. Shinn, Director, Arizona Department of Corrections, 1601 West
Jefferson Street, Phoenix, AZ 85007 (First Class Mail); and
(2) Mark Brnovich, Attorney General of the State of Arizona, 2005 North Central
Avenue, Phoenix, Arizona 85004 (First Class Mail).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

(i?Jn

James Hamm
1#9 East Encanto Drive
Tempe, AZ 85281

, 2020.

No.
SUPREME COURT OF THE UNITED STATES
DOUGLAS D. YOKOIS,
PETITIONER,
v.
DAVID C. SHINN, DIRECTOR,
ARIZONA DEPARTMENT OF CORRECTIONS,
and
MARK BRNOVICH, ATTORNEY GENERAL
OF THE STATE OF ARIZONA,
RESPONDENTS.

On Petition for a Writ of Certiorari to the
Ninth Circuit Court of Appeals
STATEMENT OF COMPLIANCE
As required by Supreme Court Rule 33.2(b), I certify that the document
has margins of at least 1", is double spaced, except for indented quotations which
are single spaced, printed on 8'A” by 11" opaque, unglazed, white paper, using
Times New Roman 14-point type, does not exceed 40 pages, and is stapled or
bound at the upper left-hand comer. I declare under penalty of perjury that the
foregoing is true and correct to the best of my knowledge and belief.
Executed on October ^ , 2020.

Petitioner pro se Douglas Yokois
-28-

